August 26, 2010

KIM R. FERNANDEZ
DISTRICT MANAGER, BAY-VALLEY DISTRICT

SUBJECT:           Audit Report – City Delivery Efficiency Review – Bay-Valley District
                   (Report Number DR-AR-10-007)

This report presents the results of our audit of the City Delivery Efficiency Review –
Bay-Valley District1 (Project Number 10XG038DR000). Our objectives were to assess
overall efficiency of city delivery operations and identify opportunities to reduce operating
costs within the Bay-Valley District. This self-initiated audit addresses operational risk and
is one in a series being conducted by the U.S. Postal Service Office of Inspector General
(OIG). See Appendix A for additional information about this audit.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. The Postal Service must achieve unprecedented levels of efficiency to accommodate
this new growth while facing financial losses from declining mail volumes and rising costs.

Conclusion

The Bay-Valley District was not operating at peak efficiency and could reduce city delivery
operating costs. Our benchmarking comparison determined the Bay-Valley District used
approximately 13 minutes more per day than the national average for each carrier route,
compared to the standard for that route. The measurement for this, called percent to
standard2, was 115.93, 9 percentage points above the national average of 106.49.

Operation Efficiency

Although numerous factors were involved, our review of 22 randomly selected delivery
units determined that district management did not always (1) provide sufficient review and
oversight of unit offices’ operating efficiencies and (2) coordinate with mail processing
facilities to ensure mail was timely received and in a condition that promoted office
operating efficiency. Elimination of time-wasting practices and an increased focus on

1
  The Bay-Valley District is one of eight districts in the Pacific Area. It consists of 99 city delivery units that deliver mail on
3,377 city routes with more than 1,846,435 delivery points.
2
  A measure of carrier office workhour performance in relation to mail volume and delivery points. A figure of 100 percent
indicates that office performance is at the stated performance goal. A figure greater than 100 percent indicates
performance is less than the desired standard.
City Delivery Efficiency Review –                                                                 DR-AR-10-007
 Bay-Valley District

efficiency could allow management to reduce workhours. Some examples include ensuring
that:

        Management discusses morning and afternoon office expectations with carriers.

        Clerks and carriers do not unnecessarily re-handle unshelved mail transport
         containers to identify and retrieve Delivery Point Sequence3 (DPS) mail.

        Carriers do not have to wait to retrieve accountable4 items.

        Carriers do not handle sequenced mailings5 on office time.

        Units receive the proper mail mix from the processing facilities per the Integrated
         Operating Plan (IOP).6

See Appendix B for additional information about these issues.

Consequently, the Bay-Valley District used more workhours than necessary to deliver the
mail. Making adjustments to its operations would increase the district’s overall efficiency by
reducing approximately 223,011 workhours, resulting in savings of more than $7.9 million
annually, or $79 million over 10 years. See Appendix C for additional information about this
issue.

Recommendations

We recommend the district manager, Bay-Valley District:

1. Reduce the district’s workhours by 223,011 to achieve an associated economic impact
   of more than $7.9 million annually, or $79 million over 10 years.

2. Reinforce Postal Service policy and procedures for supervising city delivery office
   operations in delivery units and eliminate time-wasting practices as appropriate.

3. Require processing facility managers and delivery managers to coordinate, review, and
   update all Integrated Operating Plans to ensure mail arrives timely and in the condition
   necessary to promote office efficiency.



3
  A process for sorting bar-coded letter mail at the processing plants and delivery units into the carrier’s line-of-travel Mail
is taken directly to the street, with no casing time in the office.
4
  Items that require a signature such as Registered Mail, Certified Mail, collection on delivery, postage due, scanners, and
arrow lock keys.
5
  Mailings that are distributed to the carrier in delivery order.
6
  The IOP contract covers mail arrival from the plant and identifies the product of mail agreed for each individual trip. The
primary purpose is to stabilize mail flow (for example, arrival time of DPS, auto letters, and auto flats), based on other
requirements for mail arrival such as the mail mix/unit distribution percentage.



                                                              2
                                                   Restricted Information
City Delivery Efficiency Review –                                      DR-AR-10-007
 Bay-Valley District


Management’s Comments

Management agreed with the findings, recommendations, and monetary impact in our
report.

In response to recommendation 1, management stated the Bay-Valley District has
opportunities to achieve the stated monetary impact related to the 223,011 hours. In fact,
since 2007, management eliminated 435 routes from the Bay-Valley District, which
constitutes a considerable monetary savings. Management also stated their percent to
standard was trending in the right direction with a current percent to standard of 105.51
compared to the 115.93 when the audit was conducted.

For recommendation 2, management stated that during the OIG audit, Delivery Operations
Information Systems refresher training was initiated to address unauthorized overtime and
carriers’ previous day performance. The Bay-Valley District is also focusing on ensuring
accountable mail is ready before carriers leave for the street and curtailing the casing of
sequenced mailings. In addition, the Bay-Valley District is developing a procedure to be
issued September 15, 2010, to eliminate carriers leaving the case to obtain accountable
items. Finally, Delivery Programs and In-Plant Support developed a pilot site to improve the
proper tracking of DPS mail, minimizing the expansion of office time. Management intends
to use the new procedure throughout the Bay-Valley District. These actions are partially
completed and will be fully completed by February 1, 2011.

In response to recommendation 3, management stated the Bay-Valley District is continually
emphasizing to Customer Service Operations the need to communicate with the plants on
a daily basis when mail does not arrive in the mix or condition promised. A teleconference
is held each morning to discuss the mail arrival quality and ensure the plant is aware of
inconsistencies, thereby improving the delivery of mail product. See Appendix D for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 1 significant and, therefore, requires OIG concurrence
before closure. The OIG considers the support provided by management detailing
corrective ongoing actions to be sufficient to close this recommendation.




                                                3
                                     Restricted Information
City Delivery Efficiency Review –                                       DR-AR-10-007
 Bay-Valley District

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery, or
me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Dean J. Granholm
    Drew T. Aliperto
    Veena Malhotra
    Elizabeth A. Schaefer
    Philip F. Knoll
    Corporate Audit and Response Management




                                                 4
                                      Restricted Information
City Delivery Efficiency Review –                                        DR-AR-10-007
 Bay-Valley District


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Delivery operations is the Postal Service’s largest operational function, accounting for
approximately 45 percent of salary expenses and workhours. Despite an annual increase of
approximately 1 million delivery points, delivery operations used 36.5 million fewer
workhours in fiscal year (FY) 2009 because of effective growth management, increased
use of automation, standardization of best practices, and improved productivities. Although
delivery operations used fewer workhours, workhour reduction has not kept pace with
declining mail volume. Nationally, mail volume declined by 14 percent during the first two
quarters of FY 2010, ending March 31, 2010. During this same period, mail volume
declined in the Pacific Area by 19.4 percent while workhours declined by 8.1 percent, and
in the Bay-Valley District mail volume declined by 17.5 percent while workhours declined by
8.1 percent.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess overall efficiency of city delivery operations and identify
opportunities to reduce operating costs within the Bay-Valley District. To accomplish our
objectives we:

       Ranked the eight areas from highest to lowest in terms of percent to standard from
        April 1, 2009, through March 31, 2010. We used the national percent to standard
        measurement of 106.49 percent for April 1, 2009, through March 31, 2010, as a
        baseline guide.

       Judgmentally selected the Pacific Area and, within that area, the Bay-Valley District
        for review because its percent to standard measurement of 115.93 percent
        highlighted an opportunity for improvement.

       Randomly selected 22 delivery units within the Bay-Valley District for review.

 At the selected delivery units we:

       Obtained, reviewed, and analyzed delivery unit data related to office operations.

       Conducted interviews on-site and obtained information on carrier operations, unit
        operations, processes, and procedures.

       Conducted physical observations of office delivery operations.




                                                 5
                                      Restricted Information
City Delivery Efficiency Review –                                                             DR-AR-10-007
 Bay-Valley District

        Reviewed documentation and applicable policies and procedures for city delivery
         and Postal Service Handbooks M-397 and M-41.8

We conducted this performance audit from May through August 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls, as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and conclusions
with management officials on July 28, 2010, and included their comments where
appropriate.

We relied on data obtained from Postal Service database systems, primarily eFlash9. We
did not directly audit the systems but performed a limited data integrity review to support
our data reliance. We assessed the reliability of delivery point’s data by reviewing existing
information about the data and the system that produced them, as well as interviewing
agency officials knowledgeable about the data. We determined that the data were
sufficiently reliable for the purposes of this report.

The OIG identified three audits related to our objective that were issued over the past 3
years:




7
  Management of Delivery Services, March 1998.
8
  City Delivery Carriers Duties and Responsibilities, March 1998.
9
  A weekly operating reporting management system that combines data from delivery, mail processing, employee
relations, labor relations, and finance. The information is extracted from various host systems and loaded into eFlash.



                                                            6
                                                 Restricted Information
    City Delivery Efficiency Review –                                          DR-AR-10-007
     Bay-Valley District



    PRIOR AUDIT COVERAGE

                                           Final
                         Report           Report        Monetary
   Report Title         Number             Date          Impact                    Report Results
City Delivery         DR-AR-10-006       7/1/2010      $105,000,000   The Los Angeles District was not
Efficiency                                                            operating at peak efficiency and could
Review-Los                                                            save workhours and reduce city
Angeles District                                                      delivery operating costs. Although
                                                                      numerous factors were involved, our
                                                                      review of 25 randomly selected
                                                                      delivery units confirmed these
                                                                      inefficiencies and determined district
                                                                      management did not (1) provide
                                                                      sufficient review and oversight of unit
                                                                      offices’ operating efficiencies and (2)
                                                                      coordinate with the mail processing
                                                                      facility to ensure mail was timely
                                                                      received and in a condition that
                                                                      promoted office operating efficiency.
                                                                      Elimination of time-wasting practices
                                                                      and increased focus on efficiency
                                                                      could allow management to reduce
                                                                      workhours.
City Delivery         DR-AR-10-002      12/18/2009      $21,308,433   The audit concluded the Napoleon
Efficiency Review                                                     Street Station was not operating at
– San Francisco                                                       peak efficiency and management
Napoleon Street                                                       could reduce city delivery costs. Our
Station                                                               benchmarking comparison of five
                                                                      similar delivery units showed this
                                                                      station used 54,975 more workhours
                                                                      than necessary. We also found
                                                                      management did not adjust workhours
                                                                      to the changes in workload.
                                                                      Management agreed with our findings
                                                                      and recommendations to correct the
                                                                      issues identified.
Timely City           DR-AR-08-001      10/11/2007          N/A       The audit confirmed the Chicago
Delivery –                                                            District had difficulty with timely mail
Chicago District                                                      delivery. Specifically, delivery
                                                                      performance indicators showed office
                                                                      performance was well below standard
                                                                      and street performance was at an all-
                                                                      time low. Management agreed with
                                                                      our findings and recommendations to
                                                                      correct the problems.




                                                       7
                                            Restricted Information
City Delivery Efficiency Review –                                                          DR-AR-10-007
 Bay-Valley District


                                  APPENDIX B: DETAILED ANALYSIS

Operation Efficiency

The Bay-Valley District used 223,011 more workhours than necessary. Our benchmarking
comparison determined the Bay-Valley District’s percent to standard measurement was 9
percent higher than the national average (115.93 percent compared to the national average
of 106.49 percent). In other words, the Bay-Valley District used approximately 1310 minutes
more than the average route in the nation. Over the four fiscal quarters reviewed (April 1,
2009 through March 31, 2010), the Bay-Valley District ranked sixth of eight districts in
terms of percent to standard within the Pacific Area. See Table 1.

                     Table 1. Pacific Area Percent to Standard Comparison
                               April 1, 2009 through March 31, 2010
                                                     Percent to
                                                                   Ranking
                                                     Standard
                     National Average                 106.49         N/A
                     Districts in Pacific Area
                     HONOLULU DISTRICT                 103.38         1
                     SAN DIEGO DISTRICT                109.67         2
                     SANTA ANA DISTRICT                111.86         3
                     SACRAMENTO DISTRICT               112.38         5
                     SIERRA COASTAL DISTRICT           112.71         4
                     BAY-VALLEY DISTRICT               115.93         6
                     LOS ANGELES DISTRICT              119.10         7
                     SAN FRANCISCO DISTRICT            122.10         8
                   Source: eFlash

This condition occurred because management did not always (1) provide sufficient review
and oversight of unit offices’ operating efficiencies and (2) coordinate with the mail
processing facility to ensure mail was timely received and in the condition necessary to
promote office operating efficiency.

Setting Morning and Afternoon Office Expectations

Supervisors did not always set expectations for morning office operations nor review
previous day performance with carriers. For example, supervisors often printed the Route
Carrier Daily Performance Report, but did not always discuss the report with carriers. If a
carrier does not meet performance standards, a supervisor must investigate and discuss
performance deficiencies with the carrier.



10
   13,380,660 minutes (223,011 hours above the national average percent to standard multiplied by 60 minutes per hour)
divided by 3,377 routes in the Bay-Valley District divided by 302 annual delivery days equals approximately 13 minutes
per route per day.



                                                          8
                                               Restricted Information
City Delivery Efficiency Review –                                                      DR-AR-10-007
 Bay-Valley District

We observed some carriers spending up to 15 minutes or more in the office after returning
from their routes. Postal Service policy allows a standard 5 minutes for carriers to perform
afternoon office duties. We also observed carriers not clocking in upon returning to the unit
in the afternoon, so much of this additional “office time” is hidden in street operations.

Mail Condition

DPS letters processed by the plants arrive at delivery units in mail transport containers that
are not staged for easy retrieval by the carriers. This requires clerks — and sometimes
carriers — to unload and sort DPS mail by route which delays carriers unnecessarily.
Postal Service policy11 states that mail processing should stage DPS letters for transport in
shelved or modified containers so that individual trays do not have to be re-handled at the
delivery unit. See Illustration 1.

                    Illustration 1: Carriers Re-handling and Arranging DPS Mail




                    Source: OIG


Carriers Waiting for Accountable Items

Carriers often had to wait for accountable items before departing to the street. Postal
Service policy12 states that accountable items must be available for carriers in a timely
manner so as not to delay the carrier. Since carrier time should be minimized in the
accountable operation, use of a mobile accountable cart operation13 is highly
recommended. See Illustration 2.


11
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
2007, Section 2-6.
12
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
2007, Section 3-1.
13
   Clerks use accountable carts to transport items from the accountable cage to the carriers.



                                                        9
                                             Restricted Information
City Delivery Efficiency Review –                                                            DR-AR-10-007
 Bay-Valley District



                   Illustration 2: Carriers Waiting in Line to Retrieve Accountables




          Source: OIG


Handling Sequenced Mailings

We observed some carriers handling or casing sequenced mailings instead of loading it
and taking it directly to the street.14 During our site visits, 14 of the 22 units received
sequenced mailings. Of these 14 units, eight unnecessarily handled or cased this mail.
Postal Service policy15 states that clerks should isolate walk sequenced mailings and place
them in parcel hampers so mailings can be taken directly to the street without further
handling. See Illustration 3.

                          Illustration 3: Carrier Handling/Casing Sequenced Mail




                        Source: OIG


14
    Handbook M-41, Section 222(a) “. . . sequenced mailings shall not be cased but shall be handled as additional bundles.
. .”
15
    Field Operations Standardization Development, AMSOP II Guidebook 2007, Section 3-13.



                                                           10
                                                 Restricted Information
City Delivery Efficiency Review –                                        DR-AR-10-007
 Bay-Valley District



Mail Arrival

The arrival of mail at 11 of 22 delivery units we observed did not always match the IOP
agreed to by the plant and delivery unit. When mail arrives at the delivery unit later than
expected or not in the agreed upon mail mixture, carriers are delayed in the office. In some
instances, they were even required to assist in distribution effort to speed their departure to
the street. The IOP is designed to help stabilize mail flows and is critical in establishing
appropriate staffing and reporting times to ensure carriers are not delayed. Although the
district uses the Mail Arrival Quality System to report issues to the plant, mail flow issues
often remain unresolved. See Illustration 4.

                       Illustration 4: Carriers Assisting in Distribution of Mail




                    Source: OIG

By reviewing workhour and workload utilization and improving oversight of office
processes, management would increase the Bay-Valley District efficiency, thereby saving
approximately $7.9 million annually, or more than $79 million over 10 years. See Appendix
C.




                                                  11
                                        Restricted Information
City Delivery Efficiency Review –                                                            DR-AR-10-007
 Bay-Valley District


                                    APPENDIX C: MONETARY IMPACT

              Finding                         Impact Category                                    Amount
         Operating Efficiency              Funds Put to Better Use16                           $79,016,988


We estimated the monetary impact of $79,016,988 in funds put to better use by reducing
223,011 workhours at delivery units in the Bay-Valley District. This amount included an
estimated cost savings of $76,495,928 from reducing city letter carrier positions over 10
years and $2,521,060 in reduction of delivery office overtime workhours over 2 years. See
Table 2.

                      Table 2. Bay-Valley District Station Workhour Savings
                                                            10-Year               2-year
                                       Estimated         Projection of         Projection of
                                          City           Savings from          Savings from
                                        Delivery           Full FTEs’          Partial FTEs’          Estimated
                        Delivery       Workhours           Workhour              Overtime               Total
    District            Units17         Saved18            Reduction            Workhours              Savings
Bay-Valley                42            223,011           $76,495,928           $2,521,060           $79,016,988
Source: OIG

          We calculated funds put to better use of Full-Time Equivalents (FTEs) over 10 years
           using the FY 2011 city carrier Level 2 fully loaded labor rate with an escalation factor
           of 1.7 percent.

          To determine the reduction of city carrier FTE positions, we used a cash flow
           analysis based on city carrier complement and attrition from the Web Enterprise
           Information System for FYs 2005 through 2009. We used this to determine how
           many city letter carriers are estimated to leave in future years.

          We used the discount rate of 3.875 percent based on the Postal Service’s Decision
           Analysis Report Factors (cost of borrowing rate).

          We calculated funds put to better use for reducing city carrier workhours not
           equivalent to a FTE using the city carrier overtime rate for FY 2011 with an
           escalation factor of 1.7 percent for the 2-year projection.




16
   Funds that could be used more efficiently by implementing recommended actions
17
   We identified cost savings at 42 of the 99 delivery units in the Bay-Valley District.
18
   The amount of workhours the district can save if they improve their percent to standard from 115.93 down to the
national average of 106.49. The reduction of these hours results in a projected FTE reduction of 108 positions over 10
years and a reduction of 34,011 overtime workhours over 2 years.



                                                           12
                                                 Restricted Information
City Delivery Efficiency Review –                              DR-AR-10-007
 Bay-Valley District



                           APPENDIX D: MANAGEMENT’S COMMENTS




                                               13
                                     Restricted Information
City Delivery Efficiency Review –                            DR-AR-10-007
 Bay-Valley District




                                              14
                                    Restricted Information
City Delivery Efficiency Review –                            DR-AR-10-007
 Bay-Valley District




                                              15
                                    Restricted Information
